CERTIFICATE OF COMPLIANCE
No.
Vernon Lee Havens II,
Petitioner
v.
CHIEF JUSTICE MAUREEN O’CONNOR,
JUDGE STEVEN BEATHARD
Respondents
As required by Supreme Court Rule 33.1(h),
I certify that the petition for a writ of certiorari
contains less than 3,000 words, (it contains 2,820
words), excluding the parts of the petition that
are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on

Vs/ Vernon Le

